r

No.

IN THE
SUPREME COURT OF THE UNITED STATES

FLOYD FLU GEN CE - PETITIONER

vs.

STATE OF LOUISIANA -- RESPONDENT^)
PROOF OF SERVICE
I, FLOYD FLUGENCE. do swear or declare that on this 14*h day of August, 2021, as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing and
envelope containing the above documents in the United States mail property addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:
Keith States, DA. Parish of Lafayette. P.O. Box 3306, Lafayette, Louisiana 70502-3306
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 13, 2021.
(Signature)
Floyd Flugence

28

